No.

m

s

&

11

IN THE

i

SUPREME COURT OF THE UNITED STATES

FILED
DEC 2 1 2020

— PETITIONER
(Your Name)
VS.

TU

OFFICE OF THE CLERK
SUPREME COIIRT i iq

^ <^^^4 C5<rv^RF.qpnMnFKiT(.c;)
ON PETITION FOR A WRIT OF CERTIORARI TO

f^u(LT ar appeals vx^tvA Cst2X>u.srr
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)
1^6 } t liAVd-rtiMUt g&bb £ OA^&
(Address)

?{L6irh; -r*'
(City, State, Zip Code)

(Phone Number)

1. wny the courts never acknowledged that 1 tne plaintiri never consented to
the Defendant request for Extension of Time?
2. Why the court did not acknowledged the documents in the case presenting
the evidence of the many attempts I the Plaintiff and servers tried and sabotage the
Defendants malfeasance tried to prevent?
3. Why the courts did not apply I the Plaintiff definite statement in the case
correctly.
4. Why the courts err on the subject matter jurisdiction of the case when I
the Plaintiff presented 28 U.S.C. 1332, 28 U.S.C. 1343, and 28 U.S.C.1367 in the
documents?
5. Why the courts did not acknowledge the proof of service was delivered to
the Tribal Police Office where Cindy or Christy Smith resided stating that she was
authorized to except the Summons from Bianca Smith? (Audio proof and Proof of
Service)

LIST OF PARTIES

[P All parties appear in the caption of the case on the cover page.
[vK^11 parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

^-OrSTSLXC^ coy<LT U3<ST££J\)
6^ t~
U^> 60U/(Z,Y ©Y

PjEfT/-!

RELATED CASES

\

APPENDICES
TABLE OF CONTENTS

..VI, Vll

OPNIONS BELOW.............................................
APPENDIX A Decision of W.DISTRICT OF La...
APPENDIX B Decision of U.S.COURT of Appeals
JURISDICTION................ ..................................

1
.10-19
20-30
3

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
STATEMENT OF THE CASE

2
4-7

REASON FOR GRANTING THE WRIT

8

CONCLUSION

9

CITATIONS

viii,5,7,16,17,20,22,23,25,27

TABLE OF AUTHORITIES
Federal cases

Kiowa Tribe of Oklahoma, 523 U.S. at 754

9

Kokkonen v. Guardian Life Ins. Co. of Am. 511 U.S. 375,377,114 S. Ct.
1673, 128 L Ed. 2d. (1994)
10
Havekost v. Grand Casinos of La., No. 2000 U.S. Dist. LEXIS
22429,at(W.D. La. Dec. 8,2000)........................................................

9

CTA1, LLC dba CTA Builders v. Department of Veterans Affairs (CBCA
6783) (May 2020)
10

Administrative Case
Constitution,
1st Amendment, and Civil Right

1,3,5

Statutes
1

28U.S.C. 1332
25 U.S.C.2701

1

28U.S.C. 1343

1

28U.S.C. 1367

1

28 U.S.C. 1291

1

Rules
Federal Rule of Civil Procedures 4(e)

2,5,7,11-

14,1
vi
n

Federal Rule of Civil Procedures 12(a)

8,13,1

vi.

Federal Rules of Civil Procedure 4(1)
Federal Rules of Civil Procedures 4(m)
W.D.LA. LR41a

1,12
5,12
1

Vll

Citations:
Western District of Louisiana Alexandria Division
1. Dotson also names an "unnamed supervisor" and an "unnamed manager". Dotson has never
provided any names.
2. Dotson has not explained whyshe believes there should be five zeros after "20 5".
3. Dotson did not state whether she was suing the individual defendants in their individual or
official capacities.
4. Dotson tried to mail the summonses (ECF No. 16), tried to deliver them herself (ECF No.
27), tried to effect service through the United States Attorney and United States Attorney
General ECF No. 28), and tried to leave the summonses with someone who was not an
agent for service of process (ECF Nos. 35,41). Also, although summonses were issued
(ECF No.43), there is no evidence of any effort to serve Barby ,Newman, or the Pierites.
United States Court of Appeals for the Fifth Circuit
Pursuant to 5th Circuit Rule 47.5, the court has determined that this opinion should not be
published and is not precedent except under the limited circumstances set forth in 5th
Circuit Rule 47.5.4.
1. In addition to naming the Gaming Commission, Piazza, and Vocarro as defendants,
Dotson also sued an unnamed supervisor, Sheila Augustine, Ms. Camilla, Bobby Pierites,
Catherine Pierite, Cheryl Barby, and Aubery Newman. The magistrate judge
recommended dismissing Dotson's action against these defendants for lack of service, but
the district court did not specifically mention these defendants in its dismissal. However,
on appeal, Dotson does not claim to have effected service on any of these defendants.
2. The district court also denied as moot: The Gaming Commission's alternative motion for
a more definite statement; Dotson's motion for issuance of subpoena duces tecum; and the
Commission's motion to quash.
3. Dotson also argues that the district courterred in dismissing the claims against the Gaming
Commission because he effected service on parties. However, this argument conflates the
court’s subject-matter jurisdiction with separate jurisdictional issues.Accordly,
thisargument also fails.
4. As Clerk of Court, Smith receives documents that are requested to be served through the
Tribal Police. After reviewing the documents to determine if they are sufficient, she
forwards them to the Tribal Police for service.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ '^reported at
1A > ^
• 0r,
[ ] has been designated for publication but is not yet reported; or,
[w is unpublished.

/•i_to

The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at IA * S * Tvt-STns
LJ€ST6<Lft>g>s/t
• or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ 3 reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided mv case
was OCT, T? -2,0X0
[»f No petition for rehearing was timely filed in my case.
[vj^A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
» "L#~, 'Uz 'lsO ; and a copy of the
order denying rehearing appears at Appendix Q
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

STANDARD OF REVIEW
This Court rules 28.2.1 reviews for error in the dismissal for lack
of subject matter should apply the constitution and die jurisdiction I the
Plaintiff Shannon Dotson file. The Federal Courts under the 1st
Amendment give jurisdiction to prosecute claims. 28 U.S.C. 1332 give
Federal court the power to ask questions and diversity to a claim. Under
the 28 U.S.C. 1343 Civil Rights the federal court can prosecute the claim
and for the amount exceed over 75,000.00 28 U.S.C. 1367. The court has
the right any company that allegedly affiliated with the Tunica-Biloxi
Tribal, Tunica-Biloxi Gaming Commission, and The Paragon Casino.
This Court review should be on facts that the Defendants TunicaBiloxi Tribal, Tunica-Biloxi Gaming Commission, and The Paragon
Casino abuse of power have lead to a error of the complaint file. The
Paragon have other entities that invest, immunity are only for tribal
members. The Defendant failure to follow up on FRCP. 12(a) with out a
consent from the Plaintiff I Shannon for extension of time violated my
rights as a plaintiff and the grant to dismiss should be over turned due to
the real complaint filed July 5, 2018.

2

STATEMENT OF JURISDICTION
Shannon Dotson brings this appeal of the district court’s decision granting
the Defendant (Tunica-Biloxi Gaming Commission) motion to dismiss due to
sovereign immunity and serve of process. Accordingly, this Court’s appellate
jurisdiction to review the district court final order arises from 28U.S.C.1291 (“The
court of appeals shall have jurisdiction of appeals from all final decisions of the
district court of the United States”.)

STATEMENT OF THE ISSUES
1. Whether the district court apply the Bills of Rights granting by error the
Motion to Dismiss of the Tunica-Biloxi under the 1st Amendment Mid the
25U.S.C. 2701 of the Indian Act on whether the Paragon is owed by Tunica- Biloxi
Tribal or other entities? And do The have the right to sovereign immunity?
2. Whether the district court error on granting Defendants Appellees
Piazza and Vocarro Motion to Dismiss pursuant to Fed. R. Civ. P 4(e), 12(a) and
LR 41(a) after Proof of Service was executed by requirement Fed. R. Civ. P. 4(1)
then I served the summon to Christy or (Cindy) Smith designated by law?
3. Whether the district court Motion to Dismiss error on the
jurisdiction under the Statues the Plaintiffl file under the Bills of Rights 28 U.S.C.
1332 Diversity and Questions, 1st Amendment, 28 U.S.C. 1343 Civil Rights and 28
U.S.C. 1367 the amount over 75,000.00?

STATEMENT OF THE CASE
This complaint happen when I Shannon Dotson the Plaintiff was at
the Paragon Casino I was on the slot cash wheel with bonus I played and
exactly what the slot display I the plaintiff match my game play to the
game play to win the progressive jackpot the ticket Lori Piazza stole was
worth 20.500,000.00 the slot displayed(ROA.l). 2. Lori open my slot
machine took the ticket put it in her top shirt pocket and said I did not
win. This was about a error code Lori Piazza claim that had no fact in
the manual or in the program of the slot. 3.1 prove to the Tunica-Biloxi
Gaming Commission the error code did not exist, compute in the system
and the manual.(ROA.l) Agency of the Tribe should not bare the
sovereign of immunity. The Gaming Commission regulates gaming
activities conducted within the jurisdiction. 4. The Tunica -Biloxi
Gaming Commission should not enjoy the immunity of the TunicaBiloxi Tribal as the Affidavit of Rudolph Wambsgans, III (ROA 307) it
5.The fact of the case is that Lori Piazza has my
is a Agency.
20.500,000.00 winning ticket the circumvented action she possess that
night of 6-4-17 working for a agency of the tribal with the execution of
the proof of service and Christy or Cindy Smith Affidavit acknowledge
that she had communicated with the defendant Lori Piazza and Ms.
Vocarro July 19,2019.(ROA.349) 6.The Defendants are partake in
abusing the federal law.
The district court deny the many attempt I the Plaintiff requested to get
the names of the all Defendant by publication to complete the service of
process on the unknown to FRCP 4(e) for the case.

^4

The many attempts to follow the FRCP was met with discretion and
abuse of power to complete the delivery of the summons. 7. The many
server I had assist I the plaintiff Shannon 1. Jannie English, 2. Albert
Culbert, and 3. Bianca Smith on June 14,2019. Statement say that Lori
Piazza is no longer employed(leave) noting the policy of the IRGA 25
U.S.C. 2701 that employee that break policy would be retrain to better
their work skill. Lori was the Head Supervisor over Slot to leave bring
the question of the jurisdiction of why?(ROA.349) 8.However Christy or
Cindy Smith got Lori and Ms. Vocarro to submitted support of their
Motion show how the abuse of the process was malfeasance against I the
Plaintiff attempt to fulfill the process of summons. 9. Christy or Cindy
Smith have full knowledge of the Defendants whereabouts and is in
communication with Lori and Vocarro. Also acknowledge her Cindy or
Christy Smith as the authorize agent.
On June 14,2019 the day Bianca Smith executed the summons to
the assigned agent Cindy or Christy Smith Proof of Service should have
be prosecuted on behalf of the court. 10. With the Affidavit
acknowledging her role in the summons completing FRCP 4(e) granting
a dismissal with documents showing the intent Christy played in
sabotaging the claim. 1 l.Tunica-Biloxi Gaming Commission is a agency
of the Tunica-Biloxi Tribe, the agency being the of tribe is not being the
tribe and the circumvented action Tunica-Biloxi Gaming Commission
official display should eliminate immunity for a agency. Page 6 of the
Defendant belief stated she had contact with Lori and Vocarro before the
defendant extension ranned out on July 19th 2019.
1 The Report and recommendations of the judge Perez-Montes refers to the Paragon Casino Resort by its
former name, The Grand Casino Avoyelles show err of discretion.(ROA.471)

*5

The Defendant in July file Motion for Extension of Time. The
Motion was to give the Defendants time to answer the Complaint. I the
Plaintiff never consent to the Defendant request for time. 12.The court
decided and gave the Defendant time to follow FRCP 12(a) response to
the plea. 13.In this belief the authorize agent Christy or Cindy Smith
admit to being in contact with(ROA. 34) Lori Piazza and Ms.
Vocarro(ROA.39) to sign off on the Affidavit on July 19,2019. The
Defendant allegation of not having contact bare the unethical abuse of
power that Biven action are endless to damage I the Plaintiff case.
On July 19, 2019 the Gaming Commission filed a Motion to
Dismiss pursuant to 12(b)(1) based on its tribal sovereign immunity a
agency of the Tunica-Biloxi Tribe base on the affiliation does not bare
the same immunity as the tribe and can be held in a Federal Court. 15.
The federal court need to distinguish the role of the Tunica-Biloxi
Gaming Commission not being owe (People v. Miami Nation
Enterprise) by the Tribe and being its own entity of the state.(ROA.294)
I the Plaintiff in common law was in possession of the slot
machine that I won a jackpot ticket of 20.500,000.00 that was stolen by
Lori Piazza. 16. Knowing the unethical ways to not pay I the Plaintiff
the Tunica-Biloxi Gaming Commission file for immunity cause the facts
of their case bare no truth not even in the Defendant Tribunal Court.

2 W.D. La. LR 41(a)

On February 27,2020, Judge Perez-Montes issued his Report and
Recommendations regarding the motions. The Judge Perez-Montes error
on not applying the Statues of the case. The district court have to apply
the bill of rights against a agency of the Tunica-Biloxi tribe. The district
court have proof of the attempt to serve Lori Piazza and Ms. Vocarro in
accordance with FRCP 4(e). To not acknowledge the proof of service
with the affidavit present by Cindy Smith is obstruction of Justice. The
District Court granting of a dismiss due to subject matter should be
review. Also the district court granting a dismiss due to FRCP 4(m) are
allegation made by the Defendant that the Plaintiff fulfilled court
document will validate FRCP 4(e). On March 26,2020 the court action
entered was not by law correct. Without applying the subject matter I the
Plaintiff file the case should not have been dismiss with prejudice.
(ROA.503) The Gaming Commission, Lori Piazza, and Ms. Vocarro
dismissal should be overturn and the court need to investigate the
evidence that are in the document with the correct statues applied.

3.Christy Smith or Cindy Smith statement in the brief (page 6) about
affidavit shows admission to communicating with the Defendants Piazza and
Vocarro.

REASONS FOR GRANTING THE PETITION

X

X \Cy

ptl&ZZ' ■

&(L^TTN^

X ^

£OOSXT'S

'^y&TXSX6r^ O^ ^£V\k\-£ OT* X\-Ke0£ iopS e<^
^\jjft_X ^ OXCT ^6 A X T VX PLcXf'^ XVT XX’Lk

m

t \ v\ t

^CT ^PPlX^Q So xk> (kboOYMXUx v\ope “rU£
CO<j.t£X

&<Lfcr^T

tv^€

pcrxTtD^,,
-pUM^VCS

v&^

0.1 0-£?^°
/

/«/.•

O'

S W fc.j^ hi

*0 oTSk£

'

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

bee -q.1 . t.6
i

